HHS/OIG, Audit -"Ineligible Medicare Payments To Skilled Nursing Facilities Under the Administrative Responsibilityof
Blue Cross and Blue Shield of Arizona, Inc.,"(A-05-03-00072)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments To Skilled Nursing Facilities Under the Administrative Responsibility of Blue Cross
and Blue Shield of Arizona, Inc.," (A-05-03-00072)
September 30, 2003
Complete
Text of Report is available in PDF format
(288 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
OIG determined the extent of ineligible Medicare Skilled
Nursing Facility (SNF) payments made under the administrative responsibility of Blue Cross and Blue Shield of Arizona,
Inc.  Our review of the database estimated that $1.7 million of ineligible SNF payments were made under the administrative
responsibility of Blue Cross and Blue Shield of Arizona, Inc. during calendar years 1997 through 2001.  The overpayments
occurred because of the absence of an automated cross-check, within the Centers for Medicare & Medicaid Services
Common Working File and the Fiscal Intermediary’s claims processing systems, verifying that a three consecutive day inpatient
hospital stay occurred prior to SNF admission.